No. 19-1261

 

IN THE
Supreme Court of the Anited States

TRENT MICHAEL TAYLOR,
Petitioner,
Vv.

ROBERT RIOJAS, SERGEANT OF CORRECTIONS OFFICER, INDIVIDUALLY AND IN THEIR
OFFICIAL CAPACITY; RICARDO CORTEZ, SERGEANT OF CORRECTIONS OFFICER,
INDIVIDUALLY AND IN THEIR OFFICIAL CAPACITY; STEPHEN HUNTER, CORRECTIONAL
OFFICER, INDIVIDUALLY AND IN THEIR OFFICIAL CAPACITY; LARRY DAVIDSON,
CORRECTIONAL OFFICER, INDIVIDUALLY AND IN THEIR OFFICIAL CAPACITY; SHANE
SWANEY, SERGEANT OF CORRECTIONS OFFICER, INDIVIDUALLY AND IN THEIR OFFICIAL
CAPACITY; JOE MARTINEZ,

Respondents.

 

RULE 33.1(h) CERTIFICATE OF COMPLIANCE

 

As required by Supreme Court Rule 33.1(h), I certify that the Brief of
Constitutional Accountability Center as Amicus Curiae in Support of Petitioner
contains 5,041 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 1, 2020.

Broan) ee
Brianne % Gorod

Counsel for Amicus Curiae

 
